Before the Committee on Appropriations
Subcommittee on Transportation, Treasury and
General Government
United States Senate


For Release on Delivery
Expected at
10:00 a.m. EDT
                          Key Issues for the
                          Federal Aviation
Thursday
April 22, 2004
CC-2004-038

                          Administration’s
                          FY 2005 Budget


                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
We appreciate the opportunity to testify today as the Subcommittee begins
deliberations on the Fiscal Year (FY) 2005 appropriations for the Federal Aviation
Administration (FAA).        This year, we are facing an austere budgetary
environment, one that will likely continue for at least the next several years. The
Congressional Budget Office estimates that the Federal deficit will be $477 billion
this year.


Within this context, FAA must also be positioned for a rebound in air traffic.
Domestic traffic levels still fall short of the peaks experienced in 2000, but there is
no question that traffic is rebounding. In February 2004, the number of revenue
passenger enplanements (35.1 million) was down 12 percent from February 2000,
but this represents a 5 percent growth over enplanements in February 2003
(33.3 million).


While systemwide operations in February 2004 were slightly down from February
2000, the story is very different on an airport-by-airport basis. In 13 of the
31 largest airports, including some of those that experienced serious delays in
2000, the number of scheduled flights in March 2004 actually exceeded the
number of scheduled flights in March 2000. However, in 11 of those 13 airports
the number of available seats scheduled still lagged behind the number of
available seats offered in March 2000. This is an indication, at least in part, of
how network carriers are using regional jets in the place of narrow-body jets to
connect traffic to the network hubs.


It is unlikely that the situation will reach the level of widespread system failures
we experienced in the summer of 2000, but it is possible that some airports could
experience disruptions in service. Airports that bear watching include Chicago
O’Hare, Atlanta, and the three New York metropolitan airports.



                                          1
At these five airports, arrival delays during the first 2 months of 2004 ranged
between 20 and 35 percent of scheduled flights.


The FAA and the Department have been working with the industry to identify
potential solutions to delays that might occur this summer such as creating high-
altitude express lanes and voluntary schedule reductions. At Chicago O’Hare,
arrival delays during March 2004 represented a 74 percent increase over delays in
the same period in 2003 but down from triple digit increases during the period
between November and January.


One situation that bears watching, in particular, is the expected service growth at
Washington’s Dulles airport. In June, when Independence Air is launched by
former regional carrier Atlantic Coast Airlines as a new low-cost carrier, traffic at
Dulles will increase significantly.             Some estimates put that increase at over
50 percent by this summer. In addition to airside congestion, there are concerns
with airport terminal services, including the resources needed to process a
significantly increased number of passengers through security checkpoints.


While air traffic levels continue to show improvement from the sharp declines of
2001, there still remains a substantial decline in projected Aviation Trust Fund
revenues. In 2001, FAA estimated that Trust Fund revenues in 2005 would be
about $14.5 billion. That estimate has now been reduced to $11.1 billion.1 FAA’s
FY 2005 budget request of $14 billion exceeds those revenues by nearly
$3 billion.




1
  Even though air traffic operations are rebounding, Aviation Trust Fund revenues have not returned to
previous levels partially because of lower enplanements, lower air fares, and more point-to-point service
operations, all of which affect the amount of tax revenue collected.



                                                   2
        Aviation Trust Fund: Comparison of Trust Fund Receipts
                                                $ in billions
      $16
                                                                                         $15.4
      $14                                                        $14.5
                                     $13.7
      $12   $12.9
                                                                                                 $12.1
                                                                         $11.6
      $10                                    $10.9
                    $10.1                                                        $11.1                   $11.7
       $8                                            $10.4
                             $9.3
       $6                   Actual

       $4

       $2

       $0
                FY 2003                   FY 2004                    FY 2005                 FY 2006

                    April 2001 Estimate   February 2003 Estimate           February 2004 Estimate




Clearly, a major focus for FAA this coming year, and for some time to come, must
be controlling costs. FAA has not been accustomed to operating within this type
of environment, and changing the organizational culture to reflect that focus will
be a challenge. This past year, we have seen positive signs of leadership and
commitment on the part of Administrator Blakey and her staff to address FAA’s
costs. For instance, there has been notable progress this past year in reining in
FAA’s unabated cost growth in its operations account. Progress is also being
made toward restructuring the Air Traffic Organization into a performance-based
organization. However, much more remains to be done to bring FAA’s costs
under control. Actions such as:
- developing realistic cost and schedule baselines for major acquisitions,
- avoiding long-term cost-plus contracts,
- improving contract oversight,
- implementing a cost accounting and labor distribution system, and
- identifying ways to increase workforce productivity


will be key to effectively manage the Agency’s budget, and this will be the focus
of our testimony today.


                                                             3
SAFETY. It is important to note that the U.S. aviation industry continues to be
the safest in the world. The January 2003 Air Midwest crash in Charlotte was the
only fatal commercial accident in the U.S. in the past 2 years. This past year, FAA
has made progress in reducing runway incursions (potential collisions on the
ground), but operational errors (when controllers allow planes to come too close
together in the air) continue to increase. In FY 2003, runway incursions decreased
4 percent to 324, while operational errors increased 12 percent to 1,186, with an
average of 3 operational errors each day and 1 serious error (those rated as high
risk) every 7 days.


Additionally, a significant challenge for FAA will be to adjust its safety oversight
to emerging trends in the aviation industry, such as outsourcing maintenance.
While major air carriers outsourced 37 percent of their aircraft maintenance in
1996, the amount spent on outsourced maintenance increased to 47 percent of
maintenance costs in 2002.


OPERATING COSTS.             FAA is requesting $7.849 billion for its FY 2005
operating budget, which is about $370 million above the FY 2004 enacted amount
of $7.479 billion. Operating costs represent the largest portion of FAA’s FY 2005
total budget, over 56 percent, whereas FAA’s airports and capital accounts
represent 25 percent and 18 percent, respectively. This past year Administrator
Blakey and her staff have made notable progress in beginning the process of
reining in FAA’s history of operating cost growth.


Last year we reported that FAA and the National Air Traffic Controllers
Association (NATCA) had entered into numerous sidebar agreements or
Memoranda of Understanding (MOUs). Many of those MOUs had significant cost
and/or operational impacts on the Agency, but we found that FAA had no controls
over the process.


                                         4
This past year, FAA developed new policies and procedures that, if properly
implemented, should significantly improve controls over MOUs. As part of an
agreement to extend the controllers’ collective bargaining agreement for another
2 years, FAA and NATCA also rescinded or modified many of the most costly
MOUs. For example,


- FAA and NATCA rescinded an MOU that allowed controllers transferring to
   larger consolidated facilities to begin earning the higher salaries associated
   with their new positions substantially in advance of their transfer or taking on
   new duties.


However, one costly MOU that we identified last year was not renegotiated. This
MOU concerns “Controller Incentive Pay” (CIP), which provides controllers at
110 locations with an additional cost-of-living adjustment of between 1 and
10 percent, which is in addition to Government-wide locality pay. In FY 2003,
this additional cost-of-living adjustment cost FAA about $35.6 million.


FAA also made progress in linking pay and performance—a key tenet of FAA’s
personnel reform efforts.    As part of the 2-year extension of the controllers’
agreement, FAA and NATCA agreed to tie a portion of controllers’ salary
increases to meeting four national performance metrics, which include goals for
reducing operational errors and runway incursions.         It is important to note,
however, that the performance increase represents a very small percentage of the
controllers’ total annual pay increase. For each goal reached, controllers will
receive a pay increase of 0.2 percent. However, even if none of the performance
goals are met, controllers will still receive an average increase of about 4.9 percent
this year because of contractual requirements.




                                          5
Achieving substantial reductions in operating costs represents a tremendous
challenge because salaries and benefits make up approximately 73 percent of
FAA’s operating budget. Because FAA’s salary base is relatively fixed, it is
unlikely that significant reductions in operating cost growth can be achieved in the
near term without substantial improvements in the Agency’s workforce
productivity.


Initiatives such as new air traffic systems, technological improvements, efforts to
redesign the National Airspace System, and consolidating locations all have the
potential to significantly improve productivity. In the past, FAA has embarked on
similar initiatives on a limited basis but was unable to demonstrate any credible
gains in productivity partially because FAA did not have systems to accurately
capture reliable cost and workforce-related data.


Accurate cost and workforce data are particularly critical in light of the anticipated
wave of controller retirements.           FAA currently estimates that about
7,000 controllers could leave the Agency over the next decade. Whether FAA will
need to replace all of them on a one-for-one basis depends on many factors,
including future air traffic levels, new technologies, and initiatives that FAA
undertakes in its hiring and training process. However, it is clear that as a result of
the anticipated increases in attrition, FAA will begin hiring and training controllers
at levels the Agency has not experienced since the early 1980s.


A substantial challenge for FAA will be to hire and train new controllers within a
tightly constrained operating budget. FAA has recently made significant progress
in this area by renegotiating several pay rules with NATCA that previously
allowed some newly hired controllers to earn base salaries in excess of
$79,000 while in training. The renegotiated rules now allow FAA to set newly
hired controllers’ salaries at levels that are more commensurate with an entry-level


                                          6
position (from $25,000 to $52,000), which should help FAA avoid higher costs as
it begins hiring and training greater numbers of new controllers.


We have just completed an audit of this issue and will be issuing a report next
month. We found that this is an area where management attention is needed to
better prepare for the expected increase in retirements. For example, FAA has
national estimates of expected attrition within the controller workforce, but those
estimates do not take into account where vacancies will occur.


While most locations we visited had estimates of attrition over the next 2 years,
they included different information in developing those estimates. One facility
only projected mandatory retirements, another projected attrition for transfers but
not retirements, and another provided estimates on all types of attrition (i.e.,
retirements, transfers, hardships, resignations, and removals).


In addition, FAA does not keep national statistics on the controller on-the-job
training (OJT) process, which is the longest portion of controller training. At the
locations we visited, we found that the overall time required for newly hired
controllers to become certified averaged 3.1 years, but in some cases it took as
long as 7 years. To effectively manage the OJT process as hiring increases, FAA
will need data such as the time and costs required to complete OJT, the number of
training failures, and any delays in the process to benchmark against and improve
the time and costs associated with OJT.


The expected increase in controller attrition reinforces the need for FAA to have
its cost accounting and labor distribution systems in place and operating
effectively. This past year, FAA has made some progress with its cost accounting
system, but there has been very little progress in fielding the labor distribution
system planned for air traffic employees. That system is critical for managing the


                                          7
expected wave of controller retirements. FAA is aware of this need and the Chief
Operating Officer for the Air Traffic Organization has committed to putting both
of these systems in place.


MAJOR ACQUISITIONS.              FAA modernization projects have historically
experienced considerable cost growth, schedule slips, and shortfalls in
performance.     In the current budget environment, cost growth and schedule
slippages experienced in the past are no longer affordable or sustainable. Cost and
schedule problems with ongoing modernization efforts have serious consequences
because they result in postponed benefits, the crowding out of other modernization
projects, costly interim systems, or a reduction in the number of units procured. In
the past, the severity of these problems has been masked by the size of a
modernization account that either grew or stayed constant.


We note that FAA has made downward adjustments in its FY 2005 request for a
number of modernization projects.      These projects have merit but they face
fundamental problems with respect to misjudging technological maturity,
unexpected cost growth, or concerns about how to move forward in a cost-
effective way.


• The Local Area Augmentation System (LAAS) is a new precision approach and
   landing system. In December 2002, we reported that expectations for the cost,
   schedule, and performance of the new system needed to be reset because the
   new landing system was not as mature as FAA expected. Category I LAAS
   was planned for 2006, and more demanding Category II/ III performance is
   now a research and development effort with uncertain completion dates. After
   assessing contractor progress, FAA believes that it will take considerably
   longer, as much as 21 months, to complete just the first phase of LAAS.



                                         8
• Controller-Pilot Data Link Communications (CPDLC) is a new way for
   controllers and pilots to share information that is analogous to wireless email.
   FAA is deferring plans for CPDLC because of concerns (1) about how quickly
   users would equip with new avionics, (2) that the approved program baseline
   of $167 million was materially understated and no longer valid, and (3) about
   the impact on the operations account, which is already overburdened.


• Next Generation Air-to-Ground Communications System (NEXCOM) is an
   effort to replace aging analog radios and foster the transition to digital
   communications. The first segment of NEXCOM (new radios and new ground
   infrastructure for digital communications) was expected to cost $986 million.
   However, the full cost of implementing NEXCOM throughout the National
   Airspace System was uncertain, but later segments were estimated to cost
   $3.2 billion. In addition, NEXCOM was controversial with airlines because of
   FAA’s preferred technology. While FAA will move forward with replacing
   older radios, it has postponed making decisions about NEXCOM ground
   system development.


While we see positive signs that the Administrator and her team are addressing
fundamental problems with major acquisitions, additional steps are needed.


• Developing reliable cost and schedule estimates: Last year, we reported that
   despite the benefits of acquisition reform granted in 1996, cost growth and
   scheduled slips in modernization efforts are all too common. For example, we
   analyzed 20 major acquisition projects and found that 14 of these projects
   experienced cost growth of over $4.3 billion (from $6.8 billion to
   $11.1 billion), which represents considerably more than the FAA’s annual
   appropriation for modernizing the National Airspace System.



                                        9
   For example, the cost of the Standard Terminal Automation Replacement
   System (STARS), which will supply new controller displays and related
   computer equipment for FAA’s terminal facilities, has nearly doubled from
   $940 million to $1.69 billion.


   FAA has already obligated $1.1 billion through FY 2003 and has installed
   20 STARS systems, of which 19 are operational. The Agency is currently
   reviewing its deployment plans. We reported in September 2003 that STARS
   is not the same program that was planned 8 years ago. The program has
   shifted from a commercial off-the-shelf procurement to one that has required
   more than $500 million in development costs. Moreover, because of cost
   growth and a schedule slip to FY 2012, the benefits that supported the initial
   acquisition are no longer valid.


   The FY 2004 Appropriations Conference Report directs our office to review
   and validate the Agency’s revised STARS lifecycle cost estimates. We are
   encouraged that FAA has made recent changes in the STARS program. To
   control cost growth, FAA has developed a phased approach to STARS that will
   use a fixed price contract and consider contractor performance before moving
   to the next phase.    Last Tuesday, FAA approved the first phase limiting
   STARS to 50 locations. FAA is also developing a business case to complete
   its terminal modernization program. When FAA has completed its business
   case, we will review and validate the cost estimates.


• Avoiding long-term cost-plus contracts: Our work on the cost, schedule, and
   performance problems of 20 major FAA acquisitions illustrates why the
   Agency needs to avoid entering into long-term cost-plus contracts before
   Agency requirements and user needs are fully understood.         Cost growth
   associated with additional development work and changing requirements for


                                        10
both STARS and the Wide Area Augmentation System was absorbed fully by
the Government and ultimately the taxpayer.


FAA is now undertaking a large and complex automation effort through a long
term, cost-plus contract called the En Route Automation Modernization
(ERAM) program, which FAA estimates will cost about $2 billion between
now and 2011. FAA expects to spend over $200 million annually on the
project beginning in FY 2005.        ERAM is designed to replace the Host
Computer System, the central nervous system for facilities that manage high-
altitude traffic.


One significant exception to programs with major cost overruns with cost-plus
contracts is the Advanced Technologies and Oceanic Procedures program
(ATOP), an effort to modernize FAA facilities that manage air traffic over the
Atlantic and Pacific Oceans. Because FAA has relied on what is largely a
fixed price contract and kept requirements stable, the costs associated with
additional software development and correcting software problems discovered
during testing, until recently, have been absorbed by the contractor.


Due to software development problems and pending delays, FAA modified the
contract and increased its value by $11 million in an effort to maintain the
Agency’s schedule for deploying the new system to Oakland by the end of
June. This is a modest adjustment compared to what we have seen with other
modernization projects that relied on cost-plus contracts.


While the $11 million can be accommodated in the current ATOP cost
baseline, the critical issue is what happens between now and February 2005.
This time frame is important because the recent contract modification limits
the contractor’s responsibility for paying to fix software problems FAA finds


                                     11
   in ATOP after February 28, 2005. FAA expects to complete work on the
   initial version of ATOP software (required for Oakland) shortly and plans to
   test the more advanced version of ATOP software by the end of this year.
   Given the change in the contract and tight time frames, it will be critical for
   FAA to identify all software problems before February 28, 2005.


• Improving contract management:             Last year, we reported that FAA’s
   management      of   cost-reimbursable     contracts   was   deficient,    lacked
   accountability, and did not adequately protect against waste and abuse. Our
   audits have found that FAA officials did not (1) obtain audits of billions of
   dollars in expenditures on cost-reimbursable contracts, (2) ensure reliable
   Government cost estimates were prepared and used in evaluating contracts, and
   (3) properly account for billing and expenditures to prevent overpayments. For
   example, our current audit work has identified that FAA officials did not
   obtain audits of 17 cost-reimbursable contracts with a total value of
   $6.7 billion.


   In January 2004, when we rendered our opinion on the Department’s financial
   statements, we identified these deficiencies as a material weakness, and FAA is
   implementing a detailed action plan to correct the deficiencies.          We are
   working with FAA to ensure that these actions are fully implemented. We do
   want to note that FAA achieved a “clean” opinion on its FY 2003 financial
   statements.


AIRPORTS. Finally, funding for the airport improvement programs (AIP) has
seen substantial increases over the past several years. FAA’s AIP account has
increased from $1.5 billion in 1996 to $3.5 billion in 2005. This is on top of
passenger facility charges (PFCs) that airports collect (up to $4.50 per passenger)



                                        12
that FAA estimates will generate over $2 billion in fees in 2004. FAA projections
suggest that a similar amount will be collected in 2005.


The increased amounts of AIP funding and PFC collections are directed by law
toward airport-related projects, such as new runways. However, FAA also incurs
costs to its other accounts in order to support many of the airport projects. For
example, FAA’s Facilities and Equipment (F&E) and Operations accounts bear
the cost of air traffic related projects, such as new weather or instrument landing
systems and the redesign of airspace to support new runways.


An emerging issue for FAA’s budget is whether or not airport funds should be
used to support some air traffic control related projects. In its budget request,
FAA observes that new systems once considered beneficial to FAA air traffic
operations have evolved to provide significant benefits to airport operators and
users.   FAA’s budget submission identifies several systems that should be
considered for AIP funding instead of funding from the F&E account.


Although AIP funds can be used for this purpose, the change would represent a
shift in the allocation of budgetary resources. FAA estimates that this would
impact the AIP account in FY 2005 by about $30 million, but this number could
grow as more capacity projects come on line. Accordingly, FAA needs to identify
and quantify all the specific systems that will be needed to support new
infrastructure projects and then identify the funding sources that will be used to
pay for them.


A longstanding problem that we continue to address through our work is diversion
of airport revenues by airport sponsors or owners. We have been reviewing
revenue diversions for over 13 years.        Between 1991 and 2000, our audits
disclosed over $344 million in diverted revenue.       Last year, we reported on


                                        13
revenue diversions at five large airports, including one airport whose sponsor, a
local government agency, diverted about $40 million to projects not related to the
airport.


Our work shows that FAA’s oversight of revenue diversions is limited. In the
past, FAA has maintained that it did not have the resources to devote to this issue.
We recently met with the Associate Administrator for Airports and members of
her staff to discuss FAA’s specific plans to increase the Agency’s oversight of
revenue diversions. We plan to meet next month to review progress and discuss
how we can coordinate efforts. These are steps in the right direction; the key now
is follow-through.




                                        14
AVIATION SAFETY ISSUES

In terms of safety, FAA and U.S. air carriers have maintained a remarkable safety
record. The January 2003 Air Midwest crash in Charlotte was the only fatal
commercial accident in the past 2 years. However, operational errors pose a
significant safety risk, with an average of three operational errors per day and
one serious error (those rated as high risk) every 7 days. In FY 2003, the number
of operational errors increased 12 percent to 1,186, or 125 more than the number
of incidents that occurred in FY 2002. Additionally, while runway incursions
have continued to decline for a second year in a row, there is still an average of
nearly 1 runway incursion per day and an average of 1 serious runway incursion
every 11 days (those incursions that barely avoided or had significant potential for
a collision).
                  Runway Incursions                                                     Operational Errors
                  FY 1998 to FY 2003                                                   FY 1998 to FY 2003
                                                        Rate*                                                              Rate*

   FY 1998                           304                4.7            FY 1998                           885               5.6

   FY 1999                            329               4.8            FY 1999                            941              5.7
   FY 2000                                  405         5.9            FY 2000                                    1,145    6.8
   FY 2001                                  407         6.2            FY 2001                                     1,194
                                                                                                                           7.4
   FY 2002                            339               5.2
                                                                       FY 2002                                    1,061
                                                                                                                           6.7
   FY 2003                            324               5.2
                                                                       FY 2003                                    1,186
              0    100   200    300    400     500                                                                        7.7
                                                                                 0     300     600    900      1,200 1,500

 * Rate is   per 1 million tower operations.                           * Rate is per 1 million air traffic operations.


As shown in the following table, while the total number of runway incursions has
decreased, during the first 6 months of FY 2004, the most serious runway
incursions have increased. Also, the total number of operational errors continue to
increase, even though the most serious, or high severity, operational errors
decreased during this same time period.

                         Table. Runway Incursions and Operational Errors

                                      October 1, 2003 through March 31, 2004*
                                    Total Incidents            Most Serious Incidents
                                FY     FY         Percent     FY      FY       Percent
                               2003   2004        Change     2003    2004      Change
       Runway                  165      157         (5%)      13       18        38%
       Incursions
       Operational             495                511           3%           27           21           (22%)
       Errors
*FY 2004 information is preliminary as all incidents may not have received a final severity rating. Serious incidents for runway
incursions include category A and B incidents. Serious incidents for operational errors include high-severity incidents.




                                                                 15
This past year, we also reported that improvements are needed in FAA’s oversight
of a growing trend toward air carrier use of outsourced maintenance facilities.
While major air carriers outsourced 37 percent of their aircraft maintenance
expense in 1996, the amount spent on outsourced maintenance increased to
47 percent of maintenance costs in 2002. Yet, over 90 percent of FAA’s
inspections are still focused on in-house maintenance, leaving contract repair
stations inadequately reviewed. In response to our audit, FAA agreed to develop a
new process to identify repair stations that air carriers use to perform safety-
critical repairs and target inspector resources to those facilities.

ABATING A TREND OF OPERATING COST GROWTH

FAA is requesting $7.849 billion for its FY 2005 operating budget, which is about
$370 million above the FY 2004 enacted amount of $7.479 billion. Operating
costs represent the largest portion of FAA’s FY 2005 total budget, over
56 percent, whereas FAA’s airports and capital accounts represent 25 percent and
18 percent respectively. As shown in the following graph, FAA’s operating costs
have been increasing substantially over the past 9 years.
            Figure 1. FAA's Operations Budget - FY 1996 to FY 2005*
                                 $ in Billions
                                    *(requested)
           $8                                                                  $7.8
           $7
                                                                        $7.5
           $6                                                    $7.0
                                                   $6.6   $6.9
           $5                               $6.0
                              $5.3   $5.6
           $4          $5.0
                $4.6
           $3
           $2
           $1
           $0
                 FY     FY   FY   FY   FY           FY   FY   FY         FY   FY
                1996   1997 1998 1999 2000         2001 2002 2003       2004 2005*

This past year Administrator Blakey and her staff have made notable progress in
beginning the process of reining in FAA’s history of operating cost growth.
Several areas stand out in particular.

• MOUs. Last year, we reported that FAA and the National Air Traffic
  Controllers Association (NATCA) had entered into numerous sidebar
  agreements or Memoranda of Understanding (MOUs). Many of those MOUs
  had significant cost and/or operational impacts to the Agency, but we found
  that FAA had virtually no controls over the process. This past year, FAA
  developed new policies and procedures that, if properly implemented, should
  significantly improve controls over MOUs. As part of an agreement to extend
  the controllers’ collective bargaining agreement for another 2 years, FAA and


                                              16
   NATCA also rescinded or modified many of the most costly MOUs. For
   example,

   - FAA and NATCA rescinded an MOU that allowed controllers transferring
     to larger consolidated facilities to begin earning the higher salaries
     associated with their new positions substantially in advance of their transfer
     or taking on new duties. At one location, controllers received their full
     salary increases 1 year in advance of their transfer (in some cases going
     from an annual salary of around $55,000 to over $99,000). During that
     time, they remained in their old location, controlling the same airspace, and
     performing the same duties. At three locations alone, we found FAA
     incurred over $2.2 million in unnecessary one-time costs as a result of this
     MOU.

   - FAA and NATCA also renegotiated another MOU for a new free flight tool
     that originally gave each controller two $250 cash awards and a time-off
     award of 24 hours for meeting certain training milestones on the new
     system. The MOU contained no distinction of awards for individual
     contributions other than coming to work and attending training. At six
     facilities alone, this MOU resulted in FAA incurring approximately
     $1.3 million in individual cash awards and 62,500 hours in time off, which
     is the equivalent of approximately 30 full-time positions.

   However, one costly MOU that we identified last year was not renegotiated.
   This MOU concerns “Controller Incentive Pay” (CIP), which provides
   controllers at 110 locations with an additional cost-of-living adjustment of
   between 1 and 10 percent, in addition to Government-wide locality pay. For
   example, like all other Federal and FAA employees in the Washington
   Metropolitan area, controllers receive 14.63 percent in Government-wide
   locality pay (for CY 2004). However, as a result of this MOU:
   - Controllers at Dulles International also receive 4.6 percent in CIP;
   - Controllers at Reagan National also receive 3.3 percent in CIP;
   - Controllers at Andrews Air Force Base also receive 5.9 percent in CIP; and
   - Controllers at Baltimore Washington International also receive 1.7 percent
      in CIP.

   In FY 2003, this additional cost-of-living adjustment cost FAA about
   $35.6 million.

• Flight Service Stations. Another area of progress this past year is FAA’s A-76
  study of its flight services functions, which provide general aviation pilots with
  aeronautical information and services such as weather briefings, flight planning
  assistance, and aeronautical notices. In December 2001, we issued a report


                                        17
   showing that FAA could save approximately $500 million over 7 years by
   consolidating its automated flight service stations in conjunction with
   deployment of new flight services software. In response, FAA began an A-76
   study to determine if flight services should be retained within the Government
   or contracted out.

   FAA has made strides in the process this past year. FAA plans to review
   proposals from several contractors, as well as the Government’s “More
   Efficient Organization” proposal, within the next several months and believes
   it will be ready to make a final determination by March 2005. A key challenge
   will be completing those actions under what are already tight timeframes.
   Keeping this process on track is important because the potential for cost
   savings is significant. FAA is requiring a 22 percent cost savings, or about
   $478 million, over 5 years as a selection factor for determining if a proposal
   will be considered.

• Pay for Performance. FAA also made progress in linking pay and
  performance-a key tenet of FAA’s personnel reform efforts. As part of the
  2-year extension of the controllers’ agreement, FAA and NATCA agreed to tie
  a portion of controllers’ salary increases to meeting four national performance
  metrics: (1) a reduction in the number of operational errors, (2) a reduction in
  the number of runway incursions, (3) improvements in arrival efficiency rates,
  and (4) improvements in on-time performance.

   This now means that 78 percent of FAA’s workforce will be on a pay-for-
   performance plan, up from 36 percent last year at this time. It is important to
   note, however, that in the case of controllers, the performance increase
   represents a very small percentage of their total annual pay increase. For each
   goal reached, controllers will receive a pay increase of 0.2 percent However,
   even if none of the performance goals are met, controllers will still receive an
   average increase of 4.9 percent this year because of contractual requirements.

   Other FAA employees who are on other pay systems will receive different pay
   increases. For example, non-bargaining unit employees on the Agency’s “core
   compensation plan” will receive a 4.5 percent average pay increase. However,
   those employees are still eligible to receive a performance increase, which
   averages about 0.6 percent, based on an individual’s job performance and not
   on specific goals as in the case of controllers.

• FAA Review of Overtime and Sick Leave Usage. In the past, our office
  received several hotline complaints alleging that FAA employees at five large
  facilities were abusing credit hours and manipulating work schedules to
  increase overtime. When we made FAA aware of the allegations, the Agency

                                       18
    took little or no action. Recently, however, we met with senior FAA officials
    who briefed us on measures taken to identify and address the allegations at two
    of the cited locations. According to FAA managers, the actions taken during
    the previous fiscal year have resulted in a $4 million reduction in personnel
    costs and a 19 percent reduction in overtime costs. These actions appear to be
    steps in the right direction, but it is unclear what measures have been taken at
    the other FAA facilities identified in the hotlines. Accordingly, we are
    initiating a review of the measures planned and taken at each location cited in
    the hotline complaints and will be issuing a report within the next few months.

Mr. Chairman, the actions taken by the Administrator and her staff this past year
are encouraging. However, it is important to keep in mind that achieving
significant reductions in operating costs represents a tremendous challenge. This
is because salaries and benefits make up approximately 73 percent of FAA’s
operating budget or about $5.7 billion in FY 2005.

FAA’s operating costs are further compounded by the fact that FAA has a very
high average salary base. For example, last year, the average base salary for all
FAA employees was over $87,000. We estimate that this year, the average base
salary for controllers, FAA’s largest workforce, will be about $111,000,2 which is
exclusive of premium pay. Against FAA’s high salary base, pay increases (which
are a percentage of base pay) result in large dollar increases to FAA’s operating
costs. For example, FAA’s FY 2005 budget request of $7.8 billion for operations
is a total increase of about $370 million over FY 2004 appropriations. However,
FAA estimates that approximately $200 million of the $370 million will be
consumed by pay increases alone.

Because FAA’s salary base is relatively fixed, it is unlikely that significant
reductions in operating cost growth can be achieved without substantial
improvements in the Agency’s workforce productivity. Initiatives such as new air
traffic systems, technological improvements, efforts to redesign the National
Airspace System, and consolidating locations all have the potential to significantly
improve productivity. In the past, FAA has embarked on similar initiatives on a
limited basis, but it was unable to demonstrate any credible gains in productivity
partially because FAA did not have systems to accurately capture reliable cost and
workforce-related data.

Expected Increases in Controller Attrition. A significant issue for FAA is the
expected increase in controller attrition. Attrition in FAA’s air traffic controller
workforce is expected to rise sharply in upcoming years as controllers hired after

2
  Based on a 4.9 percent average increase, which does not take into account possible additional increases
for meeting performance goals.


                                                    19
the 1981 Professional Air Traffic Controllers Organization controllers’ strike
become eligible for retirement.        FAA currently estimates that nearly
7,100 controllers could leave the Agency over the next 9 years (FYs 2004-2012).
In contrast, FAA has only experienced total attrition of about 2,100 controllers
over the past 8 years (FYs 1996-2003).

Whether FAA will need to replace all 7,100 controllers on a one-for-one basis
depends on many factors, including future air traffic levels, new technologies, and
long-term initiatives that FAA undertakes. However, it is clear that as a result of
the anticipated increases in attrition, FAA will begin hiring and training controllers
at levels that the Agency has not experienced since the early 1980s.

   Figure 2. FAA Air Traffic Controller Attrition Compared to Retirement
                                 Eligibility
         1600
         1400
         1200                                                                                      1167
                                     Actual              Estimated                            1,072
         1000                                                                           963
                                                                                  893
          800                                                           764 818

          600                                                     533
                                                          451
          400                                     405 425
                  253    271 238 246 235 257
          200 204
            0
               96

               97

               98

               99

               00

               01

               02

               03

               04

               05

               06

               07

               08

               09

               10

               11

               12
            19

            19

            19

            19

            20

            20

            20

            20

            20

            20

            20

            20

            20

            20

            20

            20

            20
                                      Attrition

           * Attrition data are as of November 2003. The number of controllers becoming eligible
           includes only those controllers reaching retirement eligibility in that year and does not
           include prior years. Retirement eligibility estimates are as of December 31, 2003.


We have just completed an audit of FAA’s process for placing and training air
traffic controllers and will be issuing a report next month. We found that this is an
area where additional management attention is needed. For example:

• FAA has national estimates of expected attrition within the controller
  workforce, but those estimates do not take into account where vacancies will
  occur. It is almost certain that many will be at some of the busiest and most
  critical facilities within the National Airspace System.




                                                  20
• While most locations we visited had estimates of attrition over the next 2 years,
  they included different information in developing those estimates. One facility
  only projected mandatory retirements, another projected attrition for transfers
  but not retirements, and another provided estimates on all types of attrition
  (i.e., retirements, transfers, hardships, resignations, and removals).

• In addition, FAA does not currently have a selection process for determining if
  newly hired controllers have the knowledge, skills, and abilities to complete
  training and become certified at the facility level of their assigned location.

• FAA does not keep national statistics on the controller on-the-job training
  (OJT) process, which is the longest portion of controller training. At the
  locations we visited, we found the overall time required for newly hired
  controllers to become certified averaged 3.1 years but in some cases took as
  long as 7 years. To effectively manage the OJT process as hiring increases,
  FAA will need data such as the time and costs required to complete OJT, the
  number of training failures, and delays in the process to benchmark against and
  improve the time and costs associated with OJT.

A substantial challenge for FAA will be to hire and train new controllers within a
tightly constrained operating budget. FAA has recently made significant progress
in this area by renegotiating several pay rules with NATCA that previously
allowed some newly hired controllers to earn base salaries in excess of
$79,000 while in training. The renegotiated rules now allow FAA to set newly
hired controllers’ salaries at levels that are more commensurate with an entry-level
position (from $25,000 to $52,000), which should help FAA avoid higher costs as
it begins hiring and training greater numbers of new controllers.

One point worth noting, Mr. Chairman, is that new controllers will generally have
lower base salaries than the retiring controllers they replace. Over time, this could
help reduce FAA’s average base salary and, in turn, help reduce FAA’s operating
cost growth. However, if FAA does not place new controllers where and when
they are needed, the potential reductions in base salaries will be offset by lower
productivity as a result of placing too many or too few controllers at individual
facilities.

To effectively manage the expected increase in controller attrition, FAA needs
accurate cost and workforce data, which underscores the urgency of getting the
Agency’s cost accounting and labor distribution systems in place and operating
effectively. The Chief Operating Officer for the Air Traffic Organization has
committed to putting both of these systems in place. This past year, FAA has
made some progress with its cost accounting system, but there has been very little



                                         21
progress in fielding the labor distribution system planned for air traffic employees.
That system is critical for managing the expected wave of controller retirements.

• Cost Accounting. In 2003, FAA’s cost accounting system was partially
  operational in two of FAA’s five lines of business. FAA produced limited cost
  accounting information for the Air Traffic Services line of business, a major
  component of the new Air Traffic Organization, and for the Commercial Space
  Transportation line of business. FAA made progress during the year by
  assigning some overhead costs properly, but much more needs to done. For
  example, FAA is unable to assign about $1.3 billion of costs to individual
  facilities. Until these costs can be assigned, managers will lack the information
  they need to determine the true cost of facility operations.

• Labor Distribution. CRU-X is the labor distribution system FAA chose to
  track hours worked by air traffic employees. As designed, CRU-X could have
  provided credible workforce data for addressing concerns about controller
  staffing, related overtime expenditures, and help determine how many
  controllers are needed and where. However, CRU-X has not been deployed as
  designed because of a September 2002 agreement between FAA and NATCA
  that limited the system’s capability to gather data regarding workforce
  productivity. Specifically, the agreement eliminated (1) requirements for
  controllers to sign in and out of the system when arriving or leaving work, and
  (2) tracking time spent by employees performing collateral duties.

   In February 2004, FAA provided NATCA with substantive changes planned
   for the system and began negotiations with the union in March. FAA and
   NATCA need to complete actions to resolve internal control deficiencies with
   CRU-X and implement the system as quickly as possible so the Agency and
   union have objective data to determine how many controllers are needed and
   where.

BRINGING FISCAL DISCIPLINE AND ACCOUNTABILITY TO FAA
MODERNIZATION EFFORTS

FAA is requesting $2.5 billion for the Facilities and Equipment account for
FY 2005. This represents a reduction of over $350 million from last year’s
appropriated level of $2.86 billion and nearly $500 million less than the authorized
level. Historically, FAA’s modernization projects have experienced considerable
cost growth, schedule slips, and shortfalls in performance.

In the current budget environment, cost growth and schedule slippages
experienced in the past are no longer affordable or sustainable. As the following
chart shows, only 56 percent of FAA’s $2.5 billion budget request for Facilities


                                         22
and Equipment is for developing and acquiring air traffic control modernization
projects. The remaining funds are for salaries, FAA facilities, and mission
support.

     Figure 3. FAA’s FY 2005 Facilities and Equipment Budget Request
                               $ Millions
                 Personnel and
                    Related
                  Expenses -                                   Air Traffic
                  $444 (18%)                                     Control
                                                               Systems -
                Mission                                       $1,391 (56%)
               Support -
              $295 (12%)


                  Facilities -
                  $370 (15%)



                                       Source: FAA
                    (Percentages may not add up to 100% due to rounding)

Cost and schedule problems with ongoing modernization efforts have serious
consequences because they result in postponed benefits (in terms of safety and
capacity), the crowding out of other modernization projects, costly interim
systems, or a reduction in units procured. In the past, the severity of these
problems has been masked by the size of a modernization budget that either grew
or stayed constant.

Adjustments to FAA Modernization Projects. FAA has reduced or eliminated
funding in its FY 2005 request for a number of modernization projects, including,
the Local Area Augmentation System, Controller-Pilot Data Link
Communications, and the Next Generation Air to Ground Communications
System. These efforts were longer-term in nature and called for airspace users to
purchase and install new avionics. Funding reductions also reflect an emphasis on
near-term FAA infrastructure projects.

These projects have merit but they face problems irrespective of funding that
needed to be addressed with respect to misjudging technological maturity,
unexpected cost growth, or concerns about how to move forward.

   • The Local Area Augmentation System (LAAS)—is a new precision landing
     and approach system. It was expected to cost $696 million and to be
     deployed in 2006, 4 years later than originally planned. FAA is not
     requesting funds for LAAS in FY 2005 and will use funds from FY 2004 to


                                            23
         continue work on the new system. In December 2002, we reported that
         expectations with respect to cost, schedule, and performance needed to be
         reset because the new landing system was not as mature as FAA expected.3
         Category I LAAS was planned for 2006 and the more demanding CAT
         II/III LAAS is now a research and development effort with uncertain
         completion dates.4

         Considerably more development work is required for LAAS than FAA
         expected just a year ago. The key issue is how to ensure the system will
         work as safely as intended. After assessing contractor progress, FAA
         estimated that it could take up to 21 months and an additional $37 million
         for the contractor to recover and complete just the first phase for LAAS.

    • Next Generation Air-to-Ground Communications System (NEXCOM)—is
      an effort to replace aging analog radios and foster the transition to digital
      communications. The first segment of NEXCOM (new radios and new
      ground infrastructure for digital communications) was expected to cost
      $986 million. FAA is requesting $31 million for NEXCOM in FY 2005,
      $54 million less than last year’s appropriated level of $85 million. FAA
      will move forward with replacing older radios (the least complex element
      of the NEXCOM effort) but has postponed making decisions about
      NEXCOM ground system development and is re-evaluating its approach
      for modernizing the air to ground communications. The full cost of
      implementing NEXCOM throughout the NAS was uncertain but later
      segments were estimated to cost $3.2 billion. Also, NEXCOM has been
      controversial with the airlines because of FAA’s preferred technology.

         FAA’s decision to postpone decisions about NEXCOM gives the Agency
         opportunities to develop a cost-effective approach for meeting the
         air-to-ground communications needs of the National Airspace System.
         While FAA replaces older radios, the Agency needs to needs to determine
         how it will (1) sustain existing communications infrastructure, and (2)
         address frequency congestion problems in the short term, (3) meet the
         communications needs of FAA and airspace users in the most cost-effective
         way.

    • Controller-Pilot Data Link Communications (CPDLC)—is a new way for
      controllers and pilots to share information that is analogous to wireless

3
  FAA Needs to Reset Expectations for LAAS Because Considerable Work Is Required Before It Can Be
Deployed for Operational Use (Av-2003-006, December 16, 2002).
4
  CAT I precision approach has a 200 foot ceiling/decision height and visibility of ½ mile. CAT II
precision approach has a 100 foot ceiling/decision height and visibility of ¼ mile. CAT III precision
approach and landing has a decision height and visibility of less than 100 feet down to the airport surface.


                                                     24
      email and considered an enabling technology for Free Flight. FAA began
      using CPDLC at Miami Center in October 2002 and planned to deploy the
      system to other facilities that manage high altitude traffic at a cost of $167
      million. FAA deferred these plans for expanding CPDLC last year. The
      Conference report for the FY 2004 Appropriations Act directed our office
      to look into, among other things, the circumstances leading to termination
      of the CPDLC program and what control could have been put in place to
      avoid a program failure of this type.

      We found that a number of factors contributed to FAA’s decision, including
      concerns about how quickly users would equip with new avionics and the
      fact the approved program baseline of $167 million was no longer valid.
      FAA estimates that it would cost $236.5 million for eight locations—an
      increase of $69 million for fewer than half the locations initially planned.

      Another factor was the impact on the operations account, which is already
      overburdened. CPDLC would have added $63 million in cost to the
      operations account for, among other things, controller training and overtime
      (for just eight locations), and $20 million annually for the cost of data link
      messages. We are continuing our work on CPDLC and will report back to
      this Committee later this year.

We see positive signs that the Administrator and her team are addressing problems
with major acquisitions. However, there should be no mistake that FAA’s efforts
are in the early stages and a number of fundamental steps are needed. They
include:

   - Developing reliable cost and schedule estimates,
   - Avoiding long-term cost-plus contracts, and
   - Establishing controls to prevent waste and abuse.

Developing Reliable Cost and Schedule Estimates. Last year, we reported that
despite the benefits of acquisition reform granted in 1996, cost growth and
scheduled slips in modernization efforts are all too common. For example, we
analyzed 20 major acquisition projects and found that 14 of these projects
experienced cost growth of over $4.3 billion (from $6.8 billion to $11.1 billion),
which represents considerably more than the FAA’s annual appropriation for
modernizing the National Airspace System. Also, 13 of the 20 projects accounted
for delays ranging from 1 to 7 years. FAA recognizes these problems and the
Agency’s strategic plan—Flight Plan 2004-2008—establishes a performance
target so that 80 percent of critical acquisitions are both on schedule and within
10 percent of budget. This is an important step.



                                        25
A number of key modernization projects that have been delayed still do not have
reliable cost and schedule baselines. Without better information, FAA cannot
effectively plan, manage the modernization portfolio, or determine what is
affordable. The following table provides information on selected acquisitions that
do not have reliable cost and schedule baselines.

    Table. Four Key Projects Needing Updated Cost and Schedule Baselines
                               ($ in Millions)

                              Estimated                      Percent
     Program                Program Costs                     Cost            Implementation       Schedule
                         (Dollars in Millions)               Growth              Schedule           Delay
                       Original    Current                             Original      Current
Wide Area                 $892.4      $2,922.4*                   227%     1998-2001    2003-TBD**    5 years
Augmentation
System

Standard Terminal           $940.2            $1.690.2              80%      1998-2005   2002-2012**   7 years
Automation
Replacement System

Airport Surveillance        $743.3            $1,040.0            39.9%      2000-2005     2003-2013   8 years
Radar-11

Integrated Terminal         $276.1               $283.7                 3%   2002-2003     2003-2008   5 years
Weather System

    *     This includes the cost to acquire geostationary satellites.
    **    Costs and schedules are under review.


Mr. Chairman, I would like to discuss three of these projects.

• Standard Terminal Automation Replacement System (STARS) will supply new
  controller displays and related computer equipment for FAA’s terminal
  facilities. FAA’s official STARS acquisition cost estimate has nearly doubled
  from $940 million to $1.69 billion.

    FAA has already obligated $1.1 billion through FY 2003 but has only installed
    20 systems, of which 19 are operational. The Agency is currently reviewing its
    deployment plans. We reported in September 2003 that STARS is not the
    same program that was planned 8 years ago. The program has shifted from a
    commercial off-the-shelf procurement to one that has required more than $500
    million in development costs. Moreover, because of cost growth and a
    schedule slip to FY 2012, the benefits that supported the initial acquisition are
    no longer valid.5 Due to STARS delays, FAA deployed Common Automated
5
 FAA Needs to Reevaluate STARS Costs and Consider Other Alternatives, AV-2003-058, September 9,
2003.


                                                               26
   Radar Terminal System (Common ARTS) hardware and software to
   141 terminal facilities over the past 5 years.

   In our 2003 report, we recommended that FAA select the most cost-effective
   and affordable strategy to complete terminal modernization by augmenting
   STARS deployment with Common ARTS. We estimated that implementing
   this approach would allow FAA to put at least $220 million to better use. To
   date, the Agency has not ruled out keeping some Common ARTS as an
   alternative if STARS proves to be unaffordable or does not perform as
   expected.

   FAA officials maintain that STARS has important capabilities, such as “Sensor
   Fusion,” which is designed to merge data from multiple radars on controllers’
   displays. However, FAA continues to experience problems with the Sensor
   Fusion software. We have not yet seen sufficient evidence to justify FAA’s
   conclusion that the capabilities of STARS are far superior to the capabilities of
   Common ARTS, and both systems are certified for use in the National
   Airspace System.

   The FY 2004 Appropriations Conference Report directs our office to review
   and validate the Agency’s revised STARS lifecycle cost estimates. We are
   encouraged that FAA has made recent changes in the STARS program. To
   control cost growth, FAA has developed a phased approach to STARS that will
   use a fixed price contract and consider contractor performance before moving
   to the next phase. Last Tuesday, FAA approved the first phase, limiting
   STARS to 50 locations. FAA is also developing a business case to complete
   its terminal modernization program. When FAA has completed its business
   case, we will review and validate the cost estimates.

• The Wide Area Augmentation System (WAAS) is a new satellite-based
  navigation system to enhance all phases of flight. The program has a long
  history of uncertainty regarding how much the system will cost, when it will be
  delivered, and what benefits can be obtained. Limited WAAS services became
  available in July 2003, but additional work is needed to expand WAAS
  coverage through additional ground stations. FAA has obligated over
  $800 million on WAAS and expects to spend $100 million on the new system
  in FY 2005.

   WAAS was expected to provide Category I performance to the majority of the
   Nation’s airports but will provide something less when the system is deployed.
   Based on our discussions with FAA, the Subcommittee should expect to see a
   reduction in overall WAAS baseline costs in the $300 to $400 million range to
   reflect the fact that Agency will not pursue Category I performance.


                                        27
• The Integrated Terminal Weather System (ITWS) - provides air traffic
  managers with a 20-minute forecast of weather conditions near airports and
  can help the National Airspace System recover from periods of bad weather.
  FAA initially planned to complete deployment of 38 systems by 2003 at a cost
  of about $276 million, but production costs increased significantly from
  $360,000 to $1 million per system. According to FAA officials, the Agency
  now plans to establish new cost and schedule parameters this April, and
  accelerate an ITWS enhancement (the Convective Weather Forecast product)
  in response to our December 2002 report.

Avoiding Long-Term Cost-Plus Contracts. Our work on the cost, schedule, and
performance problems of 20 major FAA acquisitions illustrates why the Agency
needs to avoid entering into long-term cost-plus contracts before Agency
requirements and user needs are fully understood. Cost growth associated with
additional development work and changing requirements for both STARS and
WAAS was absorbed fully by the Government. In the future, FAA needs to use a
more incremental approach to complex long-term efforts until the scope of work
and development are clearly defined and rely more on fixed price contracts.

FAA is now undertaking a large and complex automation effort through a long
term, cost-plus contract called the En Route Automation Modernization (ERAM)
program, which FAA estimates will cost about $2 billion between now and 2011.
FAA expects to spend over $240 million annually on the project beginning in
FY 2005. ERAM is designed to replace the Host Computer System, the central
nervous system for facilities that manage high altitude traffic.             The
FY 2004 Appropriations Conference Report directs our office to look at
executability of the program and identify program risks, including security.

The following chart illustrates planned funding for ERAM and as well as funding
profiles for STARS and WAAS, two projects that have been delayed for years and
do not have reliable cost estimates.6 Any cost increases with these programs will
have a cascading effect on other efforts and limit FAA’s flexibility to begin new
projects.




6
    STARS and WAAS funding profiles are currently under review by FAA.


                                                 28
                    Figure 4. Planned Funding for ERAM, STARS and WAAS
                                    Fiscal Years 2004 to 2007
                                           $ in Millions
                  $350

                  $300

                  $250
      Millions




                  $200                                                                ERAM
                                                                                      STARS
                  $150                                                                WAAS

                  $100

                   $50

                    $0
                             2004          2005           2006           2007


                         Source: FAA’s January 2004 Draft Capital Investment Plan.
                 Note: Cost and schedule plans for STARS and WAAS are under review.

ERAM is the largest and most complex automation effort FAA has embarked on
since the Advanced Automation System. We anticipate completing our first
review of this complex program this year. At this stage, we see key ERAM
program risks as: (1) an aggressive schedule, (2) complex software development
and integration, and (3) successfully managing a long-term cost-plus contract that
is already valued at close to $1 billion. As FAA moves closer to the production
phases of ERAM, the Agency should seek opportunities to use fixed-price
contracting mechanisms.

One significant exception to programs with major cost overruns is the Advanced
Technologies and Oceanic Procedures program (ATOP), an effort to modernize
FAA facilities that manage air traffic over the Atlantic and Pacific Oceans.7 This
effort has experienced some serious and unexpected software development and
testing problems. Problems are traceable to the fact that the contractor relied on
non-development software that could not meet FAA requirements.

In June 2001, FAA awarded a $217 million contract for ATOP to provide oceanic
air traffic systems. Since the contract was awarded, the contractor has experienced
problems with software development and testing. As a result, the first phase of
testing, known as factory acceptance testing, was completed 12 months behind
schedule. In October 2003, FAA began operational testing to determine whether
the new automation system would perform as intended. This testing uncovered
further software problems that forced FAA to halt testing of ATOP’s air traffic

7
 For additional details on ATOP, see Status Report on FAA’s Advanced Technologies and Oceanic
Procedures (report number AV-2004-037, March 31, 2004).


                                                        29
management functions. FAA subsequently resumed and completed that round of
testing and begin site acceptance testing in April 2004.

FAA has relied on what is largely a fixed price contract and kept requirements
stable. Consequently, the costs associated with additional software development
and correcting software problems discovered during testing have been absorbed by
the contractor—not the Government. However, due to the software problems and
pending delays, FAA decided to modify the contract in an effort to maintain the
schedule to install the system in Oakland. The modification will expand the use of
cost-plus contract elements (including time and materials) and increase the value
of the contract by approximately $11 million.

While this $11 million adjustment is modest and can be accommodated in the
current ATOP cost baseline, the critical issue is what happens between now and
February 2005. This time frame is important because the recent contract
modification limits the contractor’s responsibility for paying to fix software
problems FAA finds in ATOP after February 28, 2005. According to FAA, after
work on the initial version of ATOP software (required for Oakland) is complete,
the Agency will test the more advanced version at its Atlantic City Technical
Center by the end of this year. Given the change in the contract and tight time
frames, it will be critical for FAA to identify all software problems before
February 28, 2005.

We will continue to monitor progress with ATOP. The Conference report
accompanying the Appropriations Bill for FY 2004 directed our office to compare
FAA’s pursuit of oceanic automation capabilities to the experiences of
NAVCanada and other oceanic air traffic service providers. We intend to begin
work on this later this year.

Improving Contract Management.             Last year, we reported that FAA’s
management of cost-reimbursable contracts was deficient, lacked accountability,
and did not adequately protect against waste and abuse. Our audits have found
that FAA officials did not (1) obtain audits of billions of dollars in expenditures on
cost-reimbursable contracts, (2) ensure reliable Government cost estimates were
prepared and used in evaluating contracts, and (3) properly account for billing and
expenditures to prevent overpayments.

For example, our current audit work has identified that FAA officials did not
obtain audits of 17 cost reimbursable contracts with a total value of $6.7 billion.
In addition, we reported that FAA officials did not ensure that contractor
employees were qualified to do the work. For example, a contractor employee
charged approximately $255,000 as a senior systems engineer, even though that



                                         30
individual had only a Bachelors of Arts Degree in Psychology, and his past work
history indicated no experience in engineering.

When we rendered our opinion on the Department’s financial statements we
identified these deficiencies as a material weakness, and FAA has developed and
begun implementation of a detailed action plan to correct the deficiencies. For
example, FAA has made progress in reducing the backlog of 459 completed
contracts by closing out 279 contracts valued at $2.55 billion. In addition, FAA is
providing adequate funding to perform cost-incurred audits of contract
expenditures. Congress provided $3 million in FY 2004 funds for this purpose,
and FAA is establishing procedures to ensure the funds are applied effectively by
focusing on larger contracts.

FAA is also establishing a centralized control in FAA headquarters to track the
status of all completed and ongoing cost reimbursable contracts in order to meet
Congressional direction to audit 100 percent of contracts over $100 million and
15 percent of contracts less than $100 million. We are working with FAA to
ensure that these plans are implemented.

AIRPORT FUNDING ISSUES

Funding for the airport improvement programs (AIP) has seen substantial
increases over the past several years. FAA’s AIP account has increased from
$1.5 billion in 1996 to $3.5 billion in 2005. This is on top of passenger facility
charges (PFCs) that airports collect. The maximum amount allowed has increased
from $3.00 to $4.50 per passenger, and FAA estimates that PFCs will generate
over $2 billion in fees in 2004. FAA projections suggest that a similar amount
will be collected in 2005.

The following chart illustrates funding levels for FAA’s airports, operations, and
facilities and equipment accounts from FY 1996 through FY 2005. It shows that
AIP is taking up an increasing share of FAA’s overall budget. For example, in
FY 1996 AIP made up 18 percent of FAA’s total budget whereas in FY 2005 AIP
represents 25 percent of the Agency’s total budget.




                                        31
                               Figure 5. FAA’s Budget By Program (FYs 1996-2005)


                          $16,000
                                                                                           24%    25%
                          $14,000                                           24%     25%
    Dollars in Millions

                                                                      26%
                          $12,000
                                                        19%   17%
                          $10,000                 19%
                                          17%                                        22%           18%
                           $8,000   18%                               22%    22%            21%
                                                        21%   19%
                           $6,000                21%
                                    23%    23%
                           $4,000                                                          54%
                                    56%   58%    58%          54%    55%            52%           56%
                                                        55%                 52%
                           $2,000
                              $0
                                    1996 1997 1998 1999 2000 2001 2002 2003 2004 2005
                                                              Fiscal Year

                                                        Operations    F&E     AIP

Emerging Issue for AIP. The increased amounts of AIP funding and PFC
collections are directed by law toward airport-related projects, such as new
runways. However, FAA also incurs costs to its other accounts in order to support
many of the airport projects. For example, FAA’s Facilities and Equipment (F&E)
and Operations accounts bear the cost of air traffic related projects such as new
weather or instrument landing systems and redesigning airspace in order to
support new runways.

An emerging issue for FAA’s budget is whether or not airport funds should be
used to support some air traffic control related projects. In its budget request,
FAA observes that new systems once considered beneficial to FAA air traffic
operations have evolved to provide significant benefits to airport operators and
users. FAA’s budget submission identifies several systems that should be
considered for AIP funding instead of funding from the F&E account.

Although AIP funds can be used for this purpose, the change would represent a
shift in the allocation of budgetary resources. FAA estimates that this would
affect the AIP account in FY 2005 by about $30 million but this number could
grow as more capacity projects come on line. Accordingly, FAA needs to identify
and quantify all the specific systems that will be needed to support new
infrastructure projects and then identify the funding sources that will be used to
pay for them.

Revenue Diversions. A longstanding problem that we continue to address through
our work is diversion of airport revenues by airport sponsors or owners and a lack
of effective FAA oversight. It is a matter of law that all airports receiving Federal


                                                               32
assistance use airport revenues for the capital or operating costs of an airport. Any
other use of airport revenue is considered a “revenue diversion.” Examples of
common revenue diversions include charges to the airport for property or services
that were not provided, indirect costs such as promotional activities that were
improperly allocated to the airport, and payments of less than fair market value for
use of airport property.

We have been reviewing revenue diversions for over 13 years. Between 1991 and
2000, our audits disclosed over $344 million in diverted revenue. Last year, we
reported on revenue diversions at five large airports, including one airport whose
sponsor, a local government agency, diverted about $40 million to other projects
not related to the airport. We also just completed an audit at San Francisco
International last month which disclosed about $12 million in diverted revenue.
Additionally, we have begun reviews regarding potential revenue diversion and
contracting irregularities at Los Angeles International Airport.

Our work shows that FAA’s oversight of revenue diversions is limited. In the
past, FAA has maintained that it did not have the resources to devote to this issue.
We recently met with the Associate Administrator for Airports and members of
her staff to discuss FAA’s specific plans to increase the Agency’s oversight of
revenue diversions. We plan to meet next month to review progress and discuss
how we can coordinate efforts. Clearly, these are steps in the right direction, but
the key now is follow-through.

BEING POSITIONED FOR A REBOUND IN AIR TRAFFIC

Mr. Chairman, our testimony this morning has focused primarily on cost issues
within FAA’s budget. However, an important issue for this Subcommittee is the
fact that air traffic levels are beginning to rebound. While domestic traffic levels
still fall short of the peaks experienced in 2000, there is no question that traffic is
rebounding. In February 2004, the number of revenue passenger enplanements
(35.1 million) was down 12 percent from February 2000, but this represents a
5 percent growth over enplanements in February 2003 (33.3 million). While this
is good news for the airlines, the increased traffic levels are bringing pressure to
bear on our nation’s airports, air traffic control systems, and the traveling public.




                                          33
                                                    Percent Change in Revenue Passenger Enplanements from 2000
                                                                                                                                                                (ATA Data)

                           10%


                           0%
 Percentage




                     -10%


                     -20%

                                                                                                                                                                                                                                                                                          Feb '04
                     -30%
                                                                                                                                                                                                                                                                                           -12%

                     -40%
                                  Jan-01


                                                    Mar-01


                                                                      May-01


                                                                                        Jul-01




                                                                                                                            Nov-01


                                                                                                                                              Jan-02


                                                                                                                                                                Mar-02


                                                                                                                                                                                  May-02


                                                                                                                                                                                                    Jul-02




                                                                                                                                                                                                                                        Nov-02


                                                                                                                                                                                                                                                      Jan-03


                                                                                                                                                                                                                                                                    Mar-03


                                                                                                                                                                                                                                                                                 May-03


                                                                                                                                                                                                                                                                                             Jul-03




                                                                                                                                                                                                                                                                                                                   Nov-03


                                                                                                                                                                                                                                                                                                                               Jan-04
                                                                                                          Sep-01




                                                                                                                                                                                                                      Sep-02




                                                                                                                                                                                                                                                                                                        Sep-03
Aircraft operations have also increased significantly since September 2001. In
February 2004, domestic operations handled by Air Route Traffic Control Centers
were less than 1 percent below the operations handled in February 2000. The
3.63 million February 2004 operations represented nearly 11 percent growth over
operations handled in February 2003.

                                                    Percent Change in Air Route Traffic Control Center Operations from 2000
                                                                                  (FAA Data)

                             5%

                             0%
              Percentage




                            -5%

                           -10%                                                                                                                                                                                                                                                                                             Feb 2004
                                                                                                                                                                                                                                                                                                                              -1%
                           -15%

                           -20%
                                           Jan-01


                                                             Mar-01


                                                                               May-01


                                                                                                 Jul-01




                                                                                                                                     Nov-01


                                                                                                                                                       Jan-02


                                                                                                                                                                         Mar-02


                                                                                                                                                                                           May-02


                                                                                                                                                                                                             Jul-02




                                                                                                                                                                                                                                                 Nov-02


                                                                                                                                                                                                                                                               Jan-03


                                                                                                                                                                                                                                                                             Mar-03


                                                                                                                                                                                                                                                                                          May-03


                                                                                                                                                                                                                                                                                                      Jul-03




                                                                                                                                                                                                                                                                                                                              Nov-03


                                                                                                                                                                                                                                                                                                                                        Jan-04
                                                                                                                   Sep-01




                                                                                                                                                                                                                               Sep-02




                                                                                                                                                                                                                                                                                                                 Sep-03




While systemwide operations in February 2004 were slightly down from February
2000, the story is very different on an airport-by-airport basis. In 13 of the 31
largest airports, including some of those that experienced serious delays in 2000,
the number of scheduled flights in March 2004 actually exceeded the number of
scheduled flights in March 2000. For example, at Denver International, the
number of flights scheduled for March 2004 exceeded March 2000 schedules by
10 percent and at Chicago O’Hare, scheduled flights in March exceeded 2000
levels by 9 percent.



                                                                                                                                                                                           34
In 11 of the 13 airports where March 2004 scheduled flights exceeded March 2000
levels, the number of available seats scheduled still lagged behind the number of
available seats offered in March 2000. This is an indication, at least in part, of
how network carriers are using regional jets in the place of narrow-body jets to
connect traffic to the network hubs.

For example, in Cincinnati, a major Delta hub, scheduled flights in March 2004
were 11.5 percent higher than in March 2000, while available seats were down
7.7 percent. During this same period, regional jets, as a percentage of all aircraft
operations in Cincinnati, grew from 53.8 percent to 72.3 percent. Overall, the
number of flights scheduled to be operated by regional jets in March 2004 was
134 percent greater than in March 2000.

The growth in aircraft operations, especially at some of what have historically
been our nation’s busiest airports creates a situation that merits careful monitoring.
Although systemwide arrival delays in January and February 2004 were still
22 percent below those experienced in the first 2 months of 2000, the number is up
33 percent from the same period in 2003.

In some individual markets, the growth is particularly pronounced. At Chicago
O’Hare, arrival delays during the month of March 2004 represented a 74 percent
increase over delays during the same period in 2003, down from the 90 percent
increase during the first 2 months of 2004. At Dallas-Fort Worth, arrival delays in
January and February combined were up 80 percent over the same period in 2003.

                                       Percent Change in Arrival Delays
                                       First 2 Months of 2004 vs. 2003
                                                   (FAA Data)

                                100%              90%
                                                                 80%
                                80%
                                                                                        63%
                   Percentage




                                                                              57%
                                60%


                                40%     29%

                                20%


                                 0%
                                                                              Atlanta
                                         Newark




                                                   O'Hare



                                                                 Dallas-Ft.




                                                                                        Francisco
                                                                  Worth




                                                                                           San




                                                            35
The Department and FAA are aware of this growth in delays and the potential
near-term affects on the quality of air transportation service if the growth goes
unchecked. The Subcommittee should also follow the situation closely. It is
unlikely that the situation will reach the level of widespread system failures we
experienced in the summer of 2000, but it is possible that some airports could
experience disruptions in service. The FAA and the Department have been
working with the industry to identify potential solutions to delay problems that
might occur this summer such as high-altitude express lanes and voluntary
schedule reductions.

One situation that bears watching, in particular, is the expected service growth at
Washington’s Dulles Airport. In June, when Independence Air is launched by
former regional carrier Atlantic Coast Airlines as a new low-fare carrier, traffic at
Dulles will increase significantly. Executives at Independence Air anticipate
operating between 200 and 300 daily departures primarily between Dulles and
East Coast destinations.

Assuming that United does not reduce service in any of the markets it had
previously served using Atlantic Coast Airlines as a regional partner – and it has
made no indications that it plans to do so – daily aircraft operations at Dulles
could increase by more than 50 percent this summer. In addition to airside
congestion, there are concerns with airport terminal services, including the
resources needed to process a significantly increased number of passengers
through security checkpoints.

That concludes my statement,8 Mr. Chairman. I would be pleased to address any
questions you or other members of the Subcommittee might have.




8
  This testimony was conducted in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States. The work supporting this testimony was based on prior and
ongoing audits conducted by the Office of Inspector General. We updated material to reflect current
conditions or to reflect FY 2005 budget requests as necessary.


                                                36
                                                     ATTACHMENT (1 of 2)

 RELATED OFFICE OF INSPECTOR GENERAL REVIEWS
                   1998 - 2004
Operations
  • Using CRU-X to Capture Official Time Spent on Representational
     Activities – AV-2004-033, February 13, 2004
  • FAA’s Management of Memorandums of Understanding with the National
     Air Traffic Controllers Association – AV-2003-059, September 12, 2003
  • Safety, Cost and Operational Metrics of the Federal Aviation
     Administration’s Visual Flight Rule Towers – AV-2003-057, September 4,
     2003
  • FAA’s Oversight of Workers’ Compensation Claims in Air Traffic Services
     – AV-2003-011, January 17, 2003
  • FAA’s National Airspace System Implementation Support Contract – AV-
     2003-002, November 15, 2002
  • FAA’s Air Traffic Services’ Policy of Granting Time Off Work to Settle
     Grievances – CC-2002-048, December 14, 2001
  • Subcontracting Issues of the Contract Tower Program – AV-2002-068,
     December 14, 2001
  • Automated Flight Service Stations: Significant Benefits Could be Realized
     by Consolidating AFSS Sites in Conjunction with Deployment of OASIS –
     AV-2002-064, December 7, 2001
  • Compensation Issues Concerning Air Traffic Managers, Supervisors, and
     Specialists – AV-2001-064, June 15, 2001
  • Technical Support Services Contract: Better Management Oversight and
     Sound Business Practices Are Needed – 2000-127, September 28, 2000
  • Contract Towers: Observations on FAA’s Study of Expanding the Program
     – AV-2000-079, April 12, 2000
  • Staffing: Supervisory Reductions will Require Enhancements in FAA’s
     Controller-in-Charge Policy – AV-1999-020, November 16, 1998
  • Personnel Reform: Recent Actions Represent Progress but Further Effort is
     Needed to Achieve Comprehensive Change – AV-1998-214, September 30,
     1998
  • Liaison and Familiarization Training – AV-1998-170, August 3, 1998




                                     37
                                                       ATTACHMENT (2 of 2)
Acquisition and Modernization
  • FAA’s Advanced Technologies and Oceanic Procedures – AV-2004-037,
      March 31, 2004
  • FAA Needs to Reevaluate STARS Costs and Consider Other Alternatives –
      AV-2003-058, September 10, 2003
  • Status of FAA's Major Acquisitions – AV-2003-045, June 27, 2003
  • Integrated Terminal Weather System: Important Decisions Must Be Made
      on the Deployment Strategy – AV-2003-009, December 20, 2002
  • FAA's Progress in Developing and Deploying the Local Area
      Augmentation System – AV-2003-006, December 18, 2002
  • Follow-up Memo to FAA on STARS Acquisition – CC-2002-087, June 3,
      2002
  • Letter Response to Senator Richard Shelby on FAA's Advanced
      Technologies and Oceanic Procedures (ATOP) – CC-2001-210, April 12,
      2002
  • Status Report on the Standard Terminal Automation Replacement System –
      AV-2001-067, July 3, 2001
  • Efforts to Develop and Deploy the Standard Terminal Automation
      Replacement System – AV-2001-048, March 30, 2001

Aviation Safety
   • Review of Air Carriers’ Use of Aircraft Repair Stations - AV-2003-047,
      July 8, 2003
   • Operational Errors and Runway Incursions - AV-2003-040, April 3, 2003
   • Air Transportation Oversight System (ATOS) - AV-2002-088. April 8,
      2002
   • Oversight of FAA's Aircraft Maintenance, Continuing Analysis, and
      Surveillance Systems - AV-2002-066, December 12, 2001
   • Further Delays in Implementing Occupational Safety and Health Standards
      for Flight Attendants Are Likely - AV-2001-102, September 26, 2001
   • Despite Significant Management Focus, Further Actions Are Needed To
      Reduce Runway Incursions - AV-2001-066, June 26, 2001

Airports
   • Revenue Diversions at San Francisco International Airport - SC-2004-038,
      March 31, 2004
   • Oversight of Airport Revenue - AV-2003-030, March 20, 2003

These reports can be reviewed on the OIG website at http://www.oig.dot.gov:



                                      38
